No. 20-808

INTHE

hpmnt <!tnurt nf fl1e 3lttiteh &fates
JOHNNY DUANE MILES,

Petitioner,

v.
THE PEOPLE OF CALIFORNIA,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI FROM
THE SUPREME COURT OF CALIFORNIA

CERTIF1CATE OF SERVICE

I, Debo P. Adegbile, a member of the bar of this Court, hereby certify that, on
this 14th day of January, 2021, all parties required to be served have been served copies
of the Brief for Former State and Federal Court Judges as Amici Curiae in Support of
Petitioner in this matter by overnight courier to the addresses on the attached service
list.

~~cfJAk~
Counsel of Record

WILMER CUTLER PICKERING
HALE AND DORR LLP

7 World Trade Center
250 Greenwich Street
New York, NY 10007

(212) 230-8800
debo.adegbile@wilmerhale.com

SERVICE LIST
NO. 20-808
Counsel for Petitioner

Counsel for Respondent

CLIFFORD GARDNER
LAW OFFICE OF CLIFF GARDNER
1448 San Pablo Avenue
Berkeley, CA 94702
(510) 524-1093
casetris@aol.com

SETH MATTHEW FRIEDMAN
CALIFORNIA DEPARTMENT OF JUSTICE
OFFICE OF THE ATTORNEY GENERAL
600 West Broadway
Suite 1800
(619) 738-9157
San Diego, CA 92101
seth.friedman@doj.ca.gov

